0-T08
Docket number

0i
Supreme Court of the United States
Edward Bishop
Petitioner,
vs
United States of America,
Respondent.
On Petition for Writ of Certiorari to the United States Court of Appeals
for the Seventh Circuit
Petition for Certiorari

Edward Bishop
Federal Inmate Number 17070-029
FCI
PO Box 1000
Milan MI 48160

RECEIVED
l

FEB -II 2021

Question Presented
1.

Whether Trial Counsel's performance was deficient and

whether any errors were prejudicial?
2.

Is an indictment defective in a 924(c) prosecution if it does not

charge or specify a drug trafficking offense as the statute and
constitution require?
3.

Whether a constructive amendment occurred between the

indictment and verdict form and whether Bishop was convicted of an
offense not charged in the indictment and an offense 924(c) doesn't
criminalize?
4.

Whether Bishop is in custody in violation of the constitution?

5.

Whether the court provision to the jury of the indictment and

verdict form specifying that the jury should convict based only on the
actions alleged in the indictment and whether the verdict form
should match the indictment?
6.

Whether the Seventh Circuit failed to follow the standard for

COA applied by the Supreme Court and whether the Seventh Circuit
should have granted Bishop COA?
7. Is the phrase "drug trafficking crime" in the indictment and in 18
USC Sec 924(c) so vague that the indictment fails to state an offense
and the statute is void for vagueness?
2

8. Under 18 USC Sec 924(c) what constitutes a drug trafficking crime?

3

Parties
l.Petitioner, Edward Bishop
2. Respondent, United States of America.

4

Table of Contents
Questions presented

page 2

Parties

page 4

Table of Contents

page 5

Table of Authorities

page 6

Citation to opinions below

page 8

Jurisdiction

page 8

Constitutional and Statutory provisions

page 9

Statement of the case

page 10

Reasons for granting the writ

page 13

Conclusion

page 23

5

Table of Authorities
Page

Cases
Slack v. McDaniel, 529 U.S. 473, 483-84 (2000)

13

Miller-El v. Cockrell, 537 U.S. 322,327 (2003)

14

Barefoot v. Estelle, 463 U.S. 880, 893 (1983)

14

Bishop v. United States, U.S.Dist, LEXIS 17918 (7th Cir. 2020) 14
Strickland v. Washington, 466, 684-86 (1984)

15

Vinyard v. United States, 804 F.3d 1218,1225 (7th Cir. 2015)

15

Thomas v. Harrelson, 942 F.2d 1520,1531 (11th Cir. 1991)

16

Flinton v. Alabama, 571 U.S. 263 (2014)

16

Hamling v. United States, 418 U.S. 87,117 (1974)

17

Russell v. United States, 369 U.S. 749, 763 (1962)

18

United States v. Brown, U.S. Dist. LEXIS 12934 (7th Cir. 2019) 18
United States v. Davis, 139 S.Ct 2319 (2019)

19

United States v. Combs, 369 F.3d 925, 930-33 (6th Cir. 2004)

20

United States v. Doody, 600 F.3d 752 (7th Cir. 2010)

21

United States v. Savoires, 430 F.3d 376, 380-81 (6th Cir. 2005)

21

United States v. Kuehue, 547 F.3d 667, 683 (6th Cir. 2008)

22

United States v. Miller, 471 U.S. 130 (1985)

22

Stirone v. United States, 361 U.S. 212, 216-17 (1960)

22

6

Schmuck v. United States, 489 U.S. 705, 717 (1989)
Cole v. Arkansas, 333 U.S. 196,201 (1948)

22
22

N. King, Non-Capital Habeas Case After Appellate Review An
Empirical Analysis, 24 Fed Sentencing Reporter 308,309 (2012)

7

Citations Below
The opinion of the United States Court of Appeals for the Seventh Circuit
denying the Petitioner’s request for a Certificate of Appeal ability was
decided on September 11, 2020 (case 20-1321) and is unpublished.

Jurisdiction
The judgment and opinion of the Court of Appeals sought to be reviewed
was entered September 11, 2020. On October 9, 2020 the 7th Circuit
extended petitioner’s time to file his petition for rehearing to and including
October 8, 2020 and accepted his petition for rehearing as timely filed. On
December 9,2020 the 7th Circuit denied the petition for rehearing. No
extension of time to file this petition for writ of certiorari was sought.
Petitioner seeks to invoke this Court's certiorari jurisdiction under 28 USC §
1254 by filing this petition by first class mail within 90 days of the
December 9, 2020 judgment of the Seventh Circuit and on or before March
7, 2019.

8

Constitutional and Statutory Provisions involved
Fifth Amendment, No person shall be held to answer a capitital, or
otherwise infamous crime, unless on a presentment or indictment of a grand
jury.

Sixth Amendment, To be informed of the nature and cause of the
accusation; and to have the Assistance of Counsel for his defence.
18 U.S.C.S 924(c)(l )(A), Except to the extent that a greater minimum
sentence is otherwise provided by this subsection or by any other provision
of law, any person who, during and in relation to any crime of violence or
drug trafficking crime (including a crime of violence or drug trafficking
crime that provides for an enhanced punishment if committed by the use of
a deadly or dangerous weapon or device) for which the person may be
prosecuted in a court of the United States uses or carries a firearm, or who,
in furtherance of any such crime, possesses a firearm, shall, in addition to
the punishment provided for such crime of violence or drug trafficking
crime.

9

Statement of the Case
Petitioner Edward Bishop was charged with discharging a
firearm during and in relation to a drug trafficking crime for which
he may be prosecuted in a court of the United States in violation of of
18 USC § 924(c) (indictment [doc 1]). A white female, latter identified
as Marilyn, had a gunshot wound to her left forearm, (trial transcript
p.116). She was on the ground near a Cooper Tire/ Smith Tire shop in
Warsaw Indiana (trial trans. Pp 114-115) A blue Pontiac was near her
(trial trans. PI 17) The window in the driver's side door was broken
(trial trans. P119) Officer Sam Weaver left the tire shop and went to
the Warsaw Walmart parking lot where he found broken automobile
glass and a spent silver bullet casing, (trial transcript pl25). A
Walmart surveillance video Exhibit 4 (trial transcript 128) A blue
Pontiac was parked in the lot. (trial trans 140) A red Dodge Intrepid
was located right next to the Pontiac. The vehicles were taken to the
Warsaw police department. Detective Ticknor recovered a shell
casing for a Hornaday Lugar 9-milimeter bullet from the windshield,
(trial trans. P147) The search of the console of the red car revealed
coins, a pen, receipts, a digital scale, plastic baggies, and a magazine
for a Taurus handgun with gold 9-millimeter bullets in it (trial trans.
151) The content of the baggie was tested for ecstasy on the day of the
10

search (trial trans. pl54)
Marilyn consented to the search of her phone and provided the
police with her phone password, (trial trans. 191) The phone contains
116 text messages between Edward and Marilyn (trial trans. P204).
The oldest is dated 4/14/2017 and the lasr one is dated 5/13/2017.
(trial trans 204)
Message 108 says, 'T11 give u a blunt of moon rock roo so u can try
thant out." (trial trans. P 209)
Message 63 says, "Can u get pain pills." Message 62 replies
, " No I got xpills."(trial trans 210)
Line 33 reads,"Yea I got it how many u need I got all types of
[gas emojicon] (trial trans. 210)
Line 16 reads, "So 425 right for warlock." (trial transcript 211)
Line 9 reads, "Yea I need the address to the Wal-Mart n I gotta
get gas to bro." (trial transcript 211)
Petitioner Edward Bishop was indicted by a grad jury for used
and discharged of a firearm during and in relation to a drug
trafficking crime for which he may be prosecuted in a court of the
United States in violation of 18 U.S.C.S 924(c) (indictment [Doc.11).
Bishop proceeded to trial, the district court instructed the jury as :
"The indictment charges Edward Bishop with using a firearm during
and relation to a drug trafficking crime. For you to find the defendant
11

guilty of this charge, the government must prove
it say both but it should be all of the following elements beyond a
reasonable doubt: First, that Mr. Bishop committed the crime of
possession of marijuana with the intent to distribute in violation of
section 21, United States code section 841 (a)(l)" (trial transcript page
261). Following the jury instructions the trial court instructed the
verdict form to the jury as:" use and discharge of a firearm in
furtherance of a drug trafficking crime" (trial transcript page 281).
The jury found Edward Bishop guilty of use and discharge of a
firearm in furtherance of a drug trafficking crime (trial transcript
page 294, verdict form [Doc.66]). The district court for the Northern
District of Indiana sentenced Bishop to 120 months of imprisonment,
followed by two years of supervised release. The United States Court
of Appeals for the Seventh Circuit affirmed Bishop's conviction.
United States v Bishop 910 F3d 335 (7th Cir2018) The Supreme Court of
the United States denied petition for writ of certiorari. Bishop filed a
2255 motion in the district court, the district court denied Bishop's
2255 motion. Bishop filed an Rule 59(e) motion and asked for COA
the district court denied the motion.
Bishop filed for COA in the Seventh Circuit Court of Appeals COA
was denied. On October 9, 2020 the 7th Circuit extended petitioner’s time

12

to file his petition for rehearing to and including October 8, 2020 and
accepted his petition for rehearing as timely filed. On December 9,2020 the
7th Circuit denied the petition for rehearing. No extension of time to file this
petition for writ of certiorari was sought. Petitioner seeks to invoke this
Court's certiorari jurisdiction under 28 USC § 1254 by filing this petition
by first class mail within 90 days of the December 9, 2020 judgment of the
Seventh Circuit and on or before March 7, 2019.

Reasons for granting the writ
To obtain a COA under 2253(c), a habeas prisoner must
make a substantial showing of the denial of a constitutional right, a
defendant that includes showing that reasonable jurists could
debate whether (or, for that matter, agree that) the petition should
have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed
further. Slack v. McDaniel, 529 U.S. 473, 483-84 (2000). A prisoner
satisfies this standard "by demonstrating that jurists of reason
could disagree with the district court's resolution of his
constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed
13

further". Miller-El v. Cockrell, 537 U.S. 322,327 (2003);
Barefoot v. Estelle, 463 U.S. 880,893 (1983). A COA will issue only
if reasonable jurists could debate : 1. whether the petition states a
valid claim of the denial of a constitutional right; 2. whether the
court's procedural ruling was correct. The COA standard is not
high Bishop must only show that reasonable jurists could debate
the district court's resolution or that the issues are adequate to
deserve encouragement to proceed further In United States v
Griffith 867 F3d 1265 (D.C. Cir 2017) the D.C. Circuit held that a
general description of all electronic devices in an apartment was an
impermissible general search. In United States v Galpin 720 F3d 436,
445 (2nd Cir 2013) the 2nd Circuit condemed descriptions broader
than the description supported by specific probable cause. The
Seventh Circuit in the present case held that the warrant
authorizing the search of every file in Bishops phone did not
violate the particularity requirement of the Fourth Amendment.
910 F3d 335 (7th Cir 2019). The writ should be granted to resolve
the conflict.
In Bishop v. United States, U.S. Dist. LEXIS 17918 (7th Cir. 2020),
The district court stated: 1. The court agreed that his trial and
appellate counsel didn't raise those issues, but the court decided
that his attorneys weren't unconstitutionally ineffective because the
14

indictment wasn't defective, the jury instructions were proper, and
there was sufficient evidence of each required element of the crime;
2. The indictment wasn't defective. It contained each of the
required elements and notified Mr. Bishop of what the government
intended to prove. The indictment identified the date and location
of the conduct, laid out the elements, and identified the statute
under which Mr. Bishop was charged. Mr. Bishop contends that
the indictment should specify what type of drug trafficking offense
he committed, but the Seventh Circuit Court of Appeals hasn't
gone that far; Mr. Bishop argues that the conviction must be
vacated because the district court constructively amended his
indictment. The court didn't constructively amend Mr. Bishop's
indictment. A grand jury indicted Mr. Bishop for a violation of 18
U.S.C.S 924(c), and a jury returned a verdict of guilty on that count.

The Sixth Amendment provides that in all criminal prosecution,
"The accused shall enjoy the right to have the Assistance of counsel
for his defense".
Strickland v. Washington, 466 U.S. 668, 684-86 (1984). Trial
Counsel knew that count one lacked of specificity, the indictment
did not notify Bishop which predicate drug trafficking offense the
government alleged he use a fireanm during and in relation to.
15

Trial Counsel failed to sought for a bill of particulars, and failed to
file motion to dismiss the indictment for failing to adequately
apprise Bishop of the nature of the charges against him.
Furthermore trial counsel did not object to the district courts
jury instructions which put the jury on notice of the drug
trafficking offense which Bishop had no notice of nor did trial
counsel object to the instructions to the verdict form which
language differed from the indictment and misstated the law.
Bishop's Strickland claim rests on instructional error. The jury
instructions on the 924(c) count to the verdict form differed from
the indictment and misstated the law the first part of the
Strickland standard has been met. There is no conceivable
strategic reason for a defense lawyer to forgo a challenge to a
prejudicial jury instruction a mistake of law is deficient
performance.
Vineyard v. United States, 804 F.3d 1218,1225(7th Cir. 2015);
Thomas v. Harrelson,
942 F.2d 1520,1531 (11th Cir.1991); Hinton v.Alabama, 571 U.S. 263
(2014).
And because the instructions at issue here concerned the jury to
find Bishop's guilty of an offense that is not criminalized by 924(c)
nor that is not charged in the indictment prejudice Bishop the
16

second part of the Strickland standard has been met.
Under the Fifth Amendment, "No person shall be held to answer
for a capital, or otherwise infamous crime, unless on a presentment
or indictment of a grand jury".
The Sixth Amendment further guarantees a defendant the right,
"To be informed of the nature and cause of the accusation against
him" In order to satisfy these rights, an indictment must fulfill
three distinct functions: First, the indictment must state all of the
elements of the crime charged; second, it must adequately apprise
the defendant of the nature of the charges so that he may prepare a
defense; and -third, it must allow the defendant to
plead the judgment as a bar to any future prosecutions for the
same offense. Hamling v. United States, 418 U.S. 87,117 (1974)
Specifically, count one charges: On or about may 13, 2017,in the
N.orthem District of Indiana, Edward Bishop defendant herein,
knowingly used and discharged a firearm during and in relation to
a drug trafficking crime of which he may be prosecuted in a
court of the united States, In violation of Title 18, United States
Code, Section 924(c) (indictment [Doc 1]). "An indictment that
tracks the statutory language can nonetheless be considered
deficient if it does not provide enough factual particulars to
sufficiently apprise the defendant of what he must be prepared to
17

meet". Russell v. United States, 369 U.S. 749, 763 (1962); Russell,
369 U.S. at 765 ("Undoubtedly, the language of the statute may be
used in the general description of an offense, but it must be
accompanied with such a statement of the facts and circumstances
as well inform the accused of the specific offense, coming under
the general description, with which he is charged") Here, count one
of the indictment provides barely any factual particulars as to how
Bishop committed this offense or what the offense actually was.
Other than the general allegation that bishop violated 924(c), the
only facts specific to this offense are that it occurred on or about
May 13, 2017, and that It took place in the Northern District of
Indiana. Beyond that, it is unclear which of the numerous possible
drug trafficking crimes he is alleged to have committed. These
details failed to adequately apprise Bishop of the charges against
him. Count one is deficient and also is drafted too broadly in this
respect violates Bishop's Fifth and Sixth Amendment
Constitutional rights to an indictment by a grand jury and
notice of the charges against him. Count one failed to notify the
accused of the gravamen of the alleged offense and is ambiguous
and could referrer to any criminal acts. In United States v. Brown,
U.S. Dist. LEXIS 12934 (7th Cir. 2019), The court held: The
indictment tracks the language of the statute, 18 U.S.C.S. 924(c),
18

provides the date of the offense, identifies the charged weapon,
identifies the narcotics, these elements plainly satisfy the statutory
and constitutional requirements of an indictment as required in the
Seventh Circuit. Bishop's indictment fails to met the stander
requirements as the court held in Browns case.
In United States v. Davis, 139 S.Ct 2319 (2019), In dissent, Justice
Kavanaugh, joined by Justices Thomas, Alita, and The Chief
Justice, explained that:
"924(c) does not require examination of old conduct underlying a
prior conviction. Section 924(c) operates entirely in the present. In a
924(c) prosecution, there are ordinarily two charged crimes: the
underlying crime and the 924(c) offense.
Here for example the defendants were charged with conspiracy to
commit robbery and with the 924(c) offense. The defendants
conduct during the underlying crime is part of the 924(c) offense.
The "conduct charged" in the 924(c) offense is in front of the jury (if
the case goes to trial) or accepted by the defendant in the plea
agreement (if the defendant pleads guilty). The indictment must
allege specific offense conduct, and that conduct must be proved
with real-world facts in order to obtain a conviction. See204
L.Ed.2d 788}.
As mention Bishop was indicted on a one count indictment, "used
19

and discharged a firearm during and in relation to a drug
trafficking crime" (indictment [Doc.l].
A jury found Bishop guilty of, "use and discharging of a firearm in
furtherance of a drug trafficking crime" (trial transcript page 294,
verdict form [Doc.66]). 18 U.S.C.S 924(c) reads: "Except to the
extent that a greater minimum sentence is otherwise
provided by this subsection or b any other provision of law, any
person who, during and in relation
to any crime of violence or drug trafficking crime (including a
crime of violence or drug trafficking
crime that provides for an enhanced punishment if committed by
the use of a deadly or dangerous weapon or device) for which the
person may be prosecuted in a court of the United States uses or
carries a firearm, or who, in furtherance of any such crime,
possesses a firearm, shall, in addition to the punishment provided
for such crime of violence or drug trafficking crime.
The Sixth Circuit held that U.S.C.S 924(c) criminalizes two separate
and distinct offenses:
"1. using or carrying a firearm during and in relation to a drug
trafficking crime, and
2. possessing a firearm in furtherance of a drug trafficking crime".
United States v. Combs, 369 F.3d 925, 930-33 (6th Cir. 2004). In
20

United States v. Doody, 600 F.3d 752 (7th Cir. 2010), The
Seventh Circuit held: "The mandatory minimum applies to a
defendant "who, during and relation to any drug trafficking crime,
uses or carries a firearm, or who, in furtherance of any such crime,
possesses a firearm" 18 U.S.C.S 924(c)(1)(A). The repetition of the
subject "who" in this parallel construction makes clear that "during
and in relation to" applies only to those defendants accused of
using or carrying a firearm. For those who are charged with
possessing a firearm, the only limit is that the possession
be "in furtherance of. A jury found Bishop guilty of an offense
which is different from the crime for which he was indicted by the
grand jury and an offense that is not criminalized by 924( c). Count
1 of the indictment was constructively amended by the district
court and permitted the jury to find him guilty
of an "non-existent crime". In United States v. Savoires, 430 F.3d
376, 380-81 (6th Cir. 2005),
The Sixth Circuit held: the jury found Savoires guilty of an "offense
possession of a firearm during
and in relation to a drug trafficking crime that is not criminalized
by 924(c)". A constructive amendment occurs when the
instructions and verdict form "modify essential elements"
of the offense charged such that there is a substantial likelihood
21

that the defendant may have been convicted of an offense other
than the one charged in the indictment. United States v. Kuehue,
547 F.3d 667,683 (6th Cir. 2008). When a constructive amendment
to an indictment is alleged the United States Supreme Court
has held that the issue is "whether the defendant was convicted of
an offense not charged in the indictment"
and that "broadening the possible bases for conviction from that
which appeared in the indictment" is fatal to a conviction. United
States v. Miller, 471 U.S. 130 (1985); Stirone v. United States, 361
U.S. 212, 216-17 (1960). ("It is ancient doctrine of both the common
law and of our constitution that a defendant cannot be held to
answer a charge not contained in the indictment brought against
him"). Schmuck v. United States, 489 U.S. 705, 717 (1989). ("It is as
much a violation of due process to send an accused to prison
following conviction of a charge on which he was never tried as it
would be to convict him upon a charge that was never made").
Cole v. Arkansas, 333 U.S. 196,201 (1948). Bishop has shown that
jurists of reason could disagree with the district court's resolution
of his constitutional claims. Bishop's constitutional rights were
clearly violated and he is innocent of the crime which he was
convicted. The Court of Appeals should have granted Bishop a
COA
22

to allow review of he the district court's conclusion that the
AEDPA standard was not met, because Bishop has made "a
substantial showing of the denial of a constitutional right" 2253(c)
(2). For all these reasons the district court's decision was certainly
"debatable". The Court of Appeal's resolution of the case in an
unreasoned order denying a COA compounded the error. This
case instead should have gone to a merits panel of the Seventh
Circuit for closer review.
Conclusion
For the foregoing reasons This court should grant certiorari.

Respectfully Submitted,
Edward Bishop

23

